Audit Report




OIG-06-034

BANK SECRECY ACT: OCC Did Not Take Formal Enforcement
Action Against Wells Fargo Bank for Significant BSA Deficiencies

August 18, 2006




Office of
Inspector General
Department of the Treasury

This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the
Freedom of Information Act, 5 U.S.C. §552.
Contents

Audit Report................................................................................................. 3

    Results in Brief............................................................................................. 4

    Background ............................................................................................... 10

    Findings ....................................................................................................16

        Despite Years of BSA Program Compliance Problems at Wells, OCC Did Not
        Take Formal Enforcement Action ...............................................................16

        In Determining the Enforcement Action for Wells, OCC Did Not Follow
        Its Usual Practice .....................................................................................28

        OCC Did Not Keep FinCEN Fully Informed of the Potential BSA Violations
        at Wells and the Enforcement Action Taken ................................................37

    Conclusions .................................................................................................40

    Recommendations ........................................................................................43

Appendices

    Appendix 1:          Objective, Scope, and Methodology ........................................ 48
    Appendix 2:          Points Raised by Wells in Response to OCC’s
                         Findings and OCC Examiner Response......................................50
    Appendix 3:          BSA Program Deficiencies Communicated by OCC to Wells ........52
    Appendix 4:          Timeline of Significant Events During 2004 and 2005 Involving
                         Wells’s Examination and Enforcement ......................................57
    Appendix     5:      Management Response ..........................................................60
    Appendix     6:      OIG Comments to Management Response ................................69
    Appendix     7:      Major Contributors to This Report ............................................78
    Appendix     8:      Report Distribution.................................................................79


Abbreviations

    AML                          Anti-Money Laundering
    BSA                          Bank Secrecy Act
    BSA/AML                      Bank Secrecy Act/Anti-Money Laundering

                         BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                            1
                         Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
CEO                     Chief Executive Officer
CFR                     Code of Federal Regulations
CTR                     Currency Transaction Report
EIC                     Examiner-in-Charge
FinCEN                  Financial Crimes Enforcement Network
KYC                     Know-Your-Customer
MOU                     Memorandum of Understanding
MSB                     Money Services Business
OCC                     Office of the Comptroller of the Currency
Part 30 Notification    Notification of Failure to Meet Safety and Soundness
                        Standards and Safeguarding Customer Information Standards
                        and Request for Compliance Plan
Pub. L.                 Public Law
PPM                     Policies and Procedures Manual
USA PATRIOT Act         Uniting and Strengthening America by Providing Appropriate
                        Tools Required to Intercept and Obstruct Terrorism Act
SAR                     Suspicious Activity Report
U.S.C.                  United States Code
Wells                   Wells Fargo Bank, N.A.
WFAS                    Wells Fargo Audit Services
WSRC                    Washington Supervision Review Committee




                BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             2
                Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                      August 18, 2006

                      John C. Dugan
                      Comptroller of the Currency

                      Over the last several years, a great deal of public scrutiny has
                      focused on the performance of federal regulators in their
                      monitoring and enforcement of Bank Secrecy Act (BSA)
                      requirements. BSA, as amended, requires banks and other financial
                      institutions to maintain programs to prevent, detect, and report on
                      transactions that may support criminal acts or the laundering of
                      money for illicit purposes. Following the terrorist attacks in 2001,
                      banks have been asked to pay particular attention to transactions
                      that may support terrorism. Regulators are at the forefront of the
                      effort to ensure that banks and other financial institutions have
                      adequate BSA programs. Through their supervisory activities,
                      regulators examine financial institution programs to ensure that
                      they are adequate and, if they are not, take corrective action to
                      obtain improvement and compliance.

                      In recent years, regulators have taken an increasing number of
                      enforcement actions against financial institutions and assessed
                      tens of millions of dollars in fines against institutions found to have
                      inadequate BSA programs. Since January 2004, the Office of the
                      Comptroller of the Currency (OCC), which supervises national
                      banks, issued 25 cease and desist orders and imposed significant
                      fines against certain institutions for BSA violations, including a
                      $25 million fine against Riggs Bank in May 2004.1 However, before
                      these recent actions, formal enforcement actions and large
                      penalties were less common. Even though OCC ultimately took
                      strong enforcement against Riggs Bank, a congressional committee
                      reported in July 2004 that OCC was too tolerant of Riggs Bank’s

1
 The Financial Crimes Enforcement Network (FinCEN) concurrently imposed a $25 million fine against
Riggs Bank.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                   3
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      anti-money laundering (AML) program deficiencies over several
                      years and failed to take strong enforcement action to require
                      improvements.2

                      During the period 1999 through 2004, OCC examiners also
                      identified BSA compliance problems at another bank, Wells Fargo
                      Bank, N.A. (Wells), the nation’s fifth-largest bank. Rather than take
                      strong enforcement action, OCC in 2005 issued an informal,
                      nonpublic safety and soundness enforcement action, which
                      required Wells to develop and implement a plan for improving
                      compliance. In this context, we undertook a review to assess
                      OCC’s oversight of BSA compliance at Wells to determine if the
                      actions OCC took were appropriate.

                      To address our objective, we reviewed documents OCC provided
                      related to its oversight of Wells. These documents covered the
                      period 1999 through 2005. We also interviewed OCC employees
                      who participated in the examination and enforcement process,
                      including the then Acting Comptroller,3 other senior officials, legal
                      staff, and the examiners who worked on the examinations during
                      our review period. In addition, we interviewed (1) the Chief
                      Executive Officer (CEO) and the General Counsel of Wells about
                      the bank’s BSA compliance program and OCC’s examination and
                      enforcement actions and (2) FinCEN officials about OCC’s
                      enforcement actions and approach. A more detailed description of
                      our objective, scope, and methodology is provided in appendix 1.


Results in Brief
                      OCC’s examiners found numerous and recurring deficiencies in
                      Wells’s BSA compliance program from 1999 through 2004. Among
                      the deficiencies identified were weak internal controls over the
                      program, inadequate independent testing of business lines, lack of
                      BSA oversight, and failure to file suspicious activity reports (SAR)
                      in accordance with regulations and program requirements. Federal


2
  U.S. Senate Committee on Homeland Security and Governmental Affairs, Minority Staff of the
Permanent Subcommittee on Investigations, Money Laundering and Foreign Corruption: Enforcement
and Effectiveness of the Patriot Act, Case Study Involving Riggs Bank (July 15, 2004).
3
  OCC’s First Senior Deputy Comptroller and Chief Counsel served as Acting Comptroller from October
2004 to August 2005.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                    4
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                        statute4 requires financial institution regulators, such as OCC, that
                        identify violations in BSA programs5 to take formal enforcement
                        action by issuing the institution a public cease and desist order. In
                        2005, OCC took enforcement action against Wells but instead of
                        issuing a cease and desist order, it issued an informal, nonpublic
                        action that addressed BSA deficiencies as safety and soundness
                        weaknesses at the bank.6 This action required the bank to submit,
                        and get approved, a plan for improvement. OCC senior
                        management did not disagree with the examiners’ findings that the
                        bank had BSA program deficiencies; however, senior management
                        believed the deficiencies did not rise to the level of a program
                        violation. Moreover, senior officials believed that examiners’
                        communications with the bank may have left an unclear message
                        about the seriousness of the problems found. We disagree.
                        Examination reports provided to Wells during the period that we
                        reviewed clearly documented significant weaknesses and
                        deficiencies in Wells’s BSA program that, until early February
                        2005, were considered by OCC examiners and senior officials to be
                        violations of BSA. In reviewing the supervisory letters, quarterly
                        management letters, and reports of examination, we also believe
                        these deficiencies were clearly communicated to the bank.

                        When determining the enforcement action to take for Wells’s BSA
                        program violations, OCC did not follow its usual practice. OCC
                        guidelines require that the planned enforcement action be
                        presented to the Washington Supervision Review Committee
                        (WSRC), a headquarters committee comprised of selected senior
                        officials with a cross-section of OCC knowledge and expertise.
                        OCC documentation that provides this procedural and policy
                        guidance includes the WSRC Charter, the Policy and Procedures
                        Manual (PPM), clarifying memoranda, OCC Bulletins, and a
                        delegation matrix. Although aspects of the guidelines are not
                        entirely consistent with one another, we determined that the
                        documents all included the following general practice: to ensure
                        consistency of actions nationwide, all Part 21 violations and
                        enforcement actions against large banks based principally on BSA
                        issues should be presented to WSRC to receive its input on
                        whether the planned action raises policy or other concerns. Thus, a

4
    12 U.S.C. 1818.
5
    Requirements for bank BSA programs are stated in 12 CFR 21.21, and are described on page 12.
6
    12 CFR 30.

                        BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action               5
                        Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
customary element of the enforcement process for Wells would be
presentation of the matter to WSRC for discussion about whether
the planned enforcement action raises policy or other concerns.

In late 2004, the OCC examiner-in-charge (EIC) at Wells believed
that the situation at Wells necessitated that OCC take enforcement
action against the bank for BSA violations. In February 2005, with
senior management concurrence, OCC’s Enforcement and
Compliance Division prepared an enforcement memorandum for an
upcoming WSRC meeting. The memorandum recommended that a
cease and desist order be issued to the bank. However, after (1) a
meeting between the then Acting Comptroller, other OCC senior
officials, and the Wells CEO and (2) a written response by Wells to
the recommended action, an OCC attorney rewrote the proposed
enforcement memorandum to recommend a lesser, “informal”
enforcement action. Furthermore, although this rewritten
memorandum was intended for use by OCC’s Enforcement and
Compliance Division in an April 2005 WSRC meeting, the
presentation concerning Wells at the meeting was limited to
announcing that a final enforcement decision had been made.
Thus, WSRC input was not sought and the WSRC was effectively
removed from the customary enforcement process.

We also found that OCC did not adequately communicate with
FinCEN about Wells’s BSA violations. OCC (and the other federal
banking agencies) signed a memorandum of understanding (MOU)
with FinCEN in September 2004 requiring, among other things,
that OCC promptly notify FinCEN when significant BSA violations
are found at an institution. We determined, however, that OCC did
not keep FinCEN adequately informed of Wells’s BSA violations or
of OCC’s enforcement decision in accordance with the MOU.
Specifically, OCC advised FinCEN officials by telephone in
December 2004 that OCC was considering formal enforcement
against Wells, but FinCEN officials said that they did not hear again
about this issue until June 2005, after OCC had taken the informal
enforcement action against Wells. As a result, FinCEN was not
afforded the opportunity to timely review the findings or participate
in the enforcement process.

We believe that OCC should have acted more quickly and forcefully
to require Wells to strengthen its BSA compliance and that OCC’s


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             6
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
failure to take formal enforcement action against Wells sent the
wrong message to the banking industry about OCC’s resolve to
ensure that banks comply with BSA.

Since the Wells enforcement action, OCC has renewed its
emphasis on Bank Secrecy Act/Anti-Money Laundering (BSA/AML)
compliance by national banks. In November 2005, Comptroller
Dugan announced his plans to enhance OCC’s supervision of the
bank compliance programs. The initiatives are designed to
strengthen OCC’s BSA program examinations, enhance resources
and expertise devoted to BSA supervision, and provide clear
expectations about OCC’s BSA/AML supervision to the industry.

We are making five recommendations to the Comptroller of the
Currency to address the issues identified in this report. With regard
to Wells, we recommend that OCC closely monitor Wells’s
compliance with the action plan, take prompt enforcement action
should the bank fail to comply, and keep FinCEN fully informed of
the bank’s progress in improving compliance. We also recommend
specific actions OCC needs to take to improve its handling of bank
noncompliance with BSA in the future. These actions include
obtaining WSRC input before taking enforcement action, and
documenting the WSRC deliberation and basis for the enforcement
action taken.

OCC Response and OIG Comment

In a written response, the Comptroller of the Currency stated that
he agreed with our five recommendations, with one qualification,
and that OCC will carry them out.

The Comptroller’s response also had a number of comments, which
reflected both his general areas of agreement with our report, and
several specific concerns. Since his appointment as Comptroller,
which was after the events discussed in this report, he has initiated
a number of steps to enhance BSA/AML supervision at OCC. The
Comptroller also stated that he has committed to Congress that
OCC will be firm and consistent in its expectations that national
banks have strong compliance programs, but also will be fair in its
responses to potential problems and weaknesses. The Comptroller
also recognized the importance of documenting OCC’s deliberative


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             7
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
process including its review in cases in which the enforcement
action taken is different than the action recommended by a lower-
level reviewer and/or the WSRC. The actions taken by the
Comptroller to enhance BSA/AML supervision as referenced in the
response are discussed later in this report.

The one qualification to the Comptroller’s agreement with our
recommendations pertains to our fourth recommendation.
Specifically, we recommended that minutes be kept of WSRC
meetings to include a record of the deliberations, recommendation,
and final committee decision. The Comptroller expressed concern
that detailed minutes of open and candid discussions would have a
chilling effect on committee members and be counterproductive.
The Comptroller believes a more appropriate type of documentation
would be to detail the basis for a final determination as part of a
memorandum that describes the “case” to the WSRC and/or any
supplementary explanation for the decision by the responsible
Senior Deputy Comptroller. We do not mean to suggest that all
comments committee members make be included in the minutes as
we agree that might impede frank and open discussions that are
essential to the deliberative process. However, we believe that it is
critical to document the issues presented to the committee in the
minutes to support the rationale for the recommendation and
OCC’s final decision. Accordingly, the Comptroller’s suggestion to
document the basis for a decision and supplementary explanation
in a separate memorandum meets the intent of our
recommendation.

In addition to this qualification, the Comptroller had two concerns
and one general comment about the report. One concern was that
we did not recognize the need for thorough, multi-level review for
important agency decisions. The report implied that the views of
the first level of participants in the review process are
presumptively correct, and that it is unusual or inappropriate for
senior management to reach different conclusions. We do agree
that a multi-level review process is not only necessary but essential
for important agency decisions. We also recognize that senior
management can reach a different conclusion than the examiners
and others in the lower levels of the review process, and this can
be appropriate. In the case of Wells, however, we concluded based
on our review of the supervisory and enforcement documentation


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             8
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
that the examiners made the correct recommendation to issue a
cease and desist order to Wells. Our criticism of OCC with respect
to Wells is that the documentation we reviewed and our interviews
with OCC officials and staff did not provide convincing or
compelling support for taking a different action.

Another concern expressed by the Comptroller was that the report
could be read to imply that it is inappropriate for the Comptroller or
senior OCC supervisors to meet with senior management of a
national bank to discuss issues of concern to the OCC and that
bank. We do not mean to imply this in our report. We agree with
the Comptroller, as stated in his response, that it is essential that
the head of the agency and senior OCC staff be willing to meet
with management of any national bank to discuss issues of
concern to either party. We also agree with the Comptroller that
where those issues relate to possible enforcement action, it is
fundamental to a fair process to hear the views of the bank and,
where appropriate, to follow up on relevant information presented
by the bank.

As a general comment in the response, the Comptroller emphasizes
that the enforcement choice for Wells was not between taking a
serious enforcement action and doing nothing. All agreed that the
bank’s BSA/AML compliance raised serious concerns that required
a serious response, which in this case meant a comprehensive and
enforceable corrective tool that would require the bank to make
substantial expenditures to remedy past deficiencies. The
Comptroller also emphasized that the choice confronting OCC was
to achieve these results through a Part 30 safety and soundness
action, requiring a compliance plan that is enforceable by order, or
a formal cease and desist order, which is public. Both are
substantial enforcement measures, and their effect in requiring
serious remedial action from a bank are virtually the same. In a
BSA/AML matter, the decision to choose one over the other is a
judgment call that requires the agency, using its legal and
supervisory experience and expertise, to carefully apply a quite
technical legal standard to the particular facts at issue. In this case,
the final decision was to exercise its judgment to proceed with a
Part 30 action, which, as anticipated, required the bank to begin
immediately to expend the substantial sums necessary to remedy
the problem. The Comptroller believes our draft report should be


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             9
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                        modified to more clearly acknowledge the judgmental nature of the
                        final determination between two serious types of enforcement
                        remedies, even though we disagree with that judgment. We believe
                        our report does adequately state that OCC’s decision was a
                        judgment call. We also acknowledge that a Part 30 safety and
                        soundness action is a serious enforcement action. We believe that
                        both the nature of the BSA deficiencies at Wells as well as the
                        history of non-compliance warranted a public enforcement action.
                        That being said, we do hope that OCC achieves its objectives with
                        the Part 30 safety and soundness action and that Wells implements
                        and maintains a fully compliant BSA program going forward.

                        OCC also provided a number of proposed corrections and
                        exceptions to the information in our draft report. We made some
                        limited changes to the report where appropriate. The Comptroller’s
                        written response is included in appendix 5. Our comments specific
                        to other matters raised in the response are provided in appendix 6.

Background
                        BSA Requires Financial Institutions to Maintain an AML Program

                        Observing that adequate records maintained by financial
                        institutions are useful in criminal, tax, and regulatory investigations,
                        Congress enacted the BSA7 in 1970. Under BSA, certain private
                        individuals, banks, and other financial institutions are required to
                        maintain records and reports that help identify the source, volume,
                        and movement of currency and other monetary instruments both
                        into and out of the United States or deposited in financial
                        institutions. These records create a paper trail for law enforcement
                        and regulators to use to pursue investigations of criminal, tax, and
                        regulatory violations, and provide evidence useful in prosecuting
                        money laundering and other financial crimes.

                        Since enacted, Congress amended BSA several times to augment
                        and supplement its purpose of identifying crimes involving illegal
                        monetary transactions. One of the more significant amendments



7
    Pub. L. No. 91-508, 84 Stat. 1114 (1970).


                        BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             10
                        Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                     was the Money Laundering Control Act of 1986,8 which closed a
                     BSA loophole by imposing criminal liability on a person or financial
                     institution that knowingly assists in money laundering or structures
                     transactions to avoid reporting under BSA. Another was the
                     Annunzio-Wylie Anti-Money Laundering Act,9 which requires
                     covered financial institutions to report suspicious transactions
                     relevant to a possible violation of law or regulation by filing a SAR
                     with FinCEN.

                     Following the September 11, 2001, terrorist attacks, Congress
                     passed the USA PATRIOT (Uniting and Strengthening America by
                     Providing Appropriate Tools Required to Intercept and Obstruct
                     Terrorism) Act of 2001.10 This law expanded BSA enforcement
                     powers and broadened the definition of financial institutions to
                     include new classes of businesses and persons.

                     OCC Is the Financial Institution Regulator for National Banks

                     OCC’s mission is to ensure that national banks are safe and sound,
                     competitive and profitable, and capable of serving in the best
                     possible manner for citizens, communities, and the domestic
                     economy. OCC supervises over 1,900 national banks and their
                     operating subsidiaries as well as federally licensed branches and
                     agencies of foreign banks.

                     The banks that OCC supervises vary in size. Banks in the large-
                     bank category, which includes Wells, have assets that average
                     $232 billion but that range as high as more than a trillion dollars.
                     Using teams of dedicated onsite examiners, the OCC large-bank
                     program supervises the 22 largest and most complex national
                     banking companies in the United States.

                     OCC enforces laws and regulations applicable to supervised
                     institutions by conducting regular compliance examinations. During
                     each examination, OCC reviews a bank’s BSA compliance program,
                     identifies its BSA and AML risks, and ensures its compliance with
                     regulatory requirements. These regulatory requirements include the
                     following:

8
  Pub. L. No. 99-570, 100 Stat. 3297-18 (1986).
9
  Pub. L. No. 102-550, 106 Stat. 4044 (1992).
10
   Pub. L. No. 107-56, 115 Stat. 272 (2001).

                     BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             11
                     Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                           •   31 CFR 103, which establishes programs, recordkeeping,
                               and reporting requirements for national banks and for federal
                               branches and agencies of foreign banks.

                           •   12 CFR 21.21, which establishes procedures for monitoring
                               BSA compliance. Specifically, banks must (1) develop and
                               provide for the continued administration of a program that is
                               reasonably designed to assure and monitor compliance with
                               the recordkeeping and reporting requirements of BSA, and
                               (2) establish and maintain a BSA compliance program that at
                               a minimum includes a system of internal controls to assure
                               ongoing compliance, independent testing for compliance
                               conducted by bank personnel or an outside party,
                               designation of an individual responsible for coordinating and
                               monitoring daily compliance, and training for appropriate
                               personnel.

                           •   12 CFR 21.11, which requires banks to report suspicious
                               activity that may involve money laundering, BSA violations,
                               and certain other crimes above prescribed dollar thresholds.

                       In addition, the USA PATRIOT Act requires every bank to adopt a
                       customer identification program as part of its BSA compliance
                       program. These customer identification programs are a component
                       of know-your-customer (KYC) programs.11

                       How OCC Communicates Examination Results to Banks

                       OCC communicates findings and recommendations to banks in
                       various written forms, including the following:



11
  The purpose of KYC policies and procedures is to help ensure that the bank knows who it is doing
business with so that it can better detect illegal or suspicious activity. KYC programs require that banks
confirm the identity of every customer and to determine why the customer wants to open the account
and the number of transactions and amount of funds that will move through the account during a year.
Customers must answer a series of questions and provide original documents to the financial institution.
Questionnaires are used for new accounts and for long-time clients to update records. According to
OCC, KYC also encompasses other requirements such as understanding the sources and uses of funds,
monitoring of high risk accounts, and reporting suspicious transactions.


                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                    12
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                          •   Reports of examination are addressed to the bank’s board of
                              directors and are issued annually. They summarize OCC
                              findings from supervisory activities conducted at the bank
                              over the year.
                          •   Quarterly management letters (now known as supervisory
                              status reports) are addressed to bank senior management.
                              They provide a quarterly summary and an update of OCC’s
                              risk assessment of the bank.12
                          •   Supervisory letters are addressed to bank management and
                              other line managers for the areas of the bank being
                              reviewed. These letters are a means to communicate
                              findings and conclusions from examination activities as they
                              occur. In addition, supervisory letters may include
                              recommendations to bank management for which the bank is
                              to provide a written response describing actions taken or
                              planned to be taken to address the recommendations.
                          •   Conclusion memoranda are internal OCC documents. OCC
                              examiners prepare conclusion memoranda when they have
                              completed a planned examination to document their findings
                              and recommendations for corrective action. Examiners may
                              provide conclusion memoranda to banks to give them early,
                              informal notice of findings and conclusions that will
                              subsequently appear in a formal communication.

                      Types of Enforcement Actions Available to OCC

                      When OCC identifies safety and soundness or compliance
                      problems, it may take either informal or formal enforcement action.

                      Informal Enforcement Actions

                      The three main informal enforcement actions available to OCC are
                      (1) a request by OCC for a written commitment by the bank to
                      address identified problems, (2) an MOU between the bank and
                      OCC, and (3) a safety and soundness plan submitted by the bank
                      pursuant to 12 CFR Part 30 (Part 30). A commitment letter and
                      MOU reflect specific bank commitments to take corrective actions

12
 Additional findings and conclusions are communicated during the quarter to applicable area bank
management as deemed appropriate.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                 13
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                     in response to problems or concerns identified by OCC in its
                     supervision of the bank. A Part 30 informal enforcement action
                     requires the bank to submit a compliance plan for OCC approval
                     that outlines the steps the bank will take and time frames to
                     correct identified deficiencies. Informal enforcement actions by
                     OCC are not made public.

                     Formal Enforcement Actions

                     Formal enforcement actions are authorized by statute, generally
                     more severe than informal actions, and public. Formal enforcement
                     actions are also enforceable through the assessment of civil money
                     penalties and through the federal court system. Formal
                     enforcement action is required when examiners find that a bank
                     failed to establish and maintain an adequate BSA compliance
                     program under 12 CFR 21.21. Formal enforcement under
                     12 USC 1818 for a violation of 12 CFR 21.21 requires that OCC
                     issue the bank a cease and desist order, which orders the bank to
                     refrain permanently from violating BSA requirements. OCC and the
                     bank may enter into the order by consent, without a hearing or
                     other legal proceedings.

                     OCC Enforcement Guidelines

                     OCC has issued guidance for taking enforcement actions. The
                     guidance directs OCC to take formal action against banks that have
                     serious deficiencies in programs or are noncompliant with BSA
                     requirements.

                     OCC’s “Enforcement Action Policy Safety and Soundness
                     Guidelines”13 state that enforcement actions should be tailored to
                     the institution, designed to correct deficiencies, and return the
                     bank as soon as possible to a safe and sound condition.

                     OCC enforcement guidance presumes that formal enforcement
                     action will be taken when the bank

                         •   is experiencing serious problems or weaknesses in its
                             systems, controls, internal audit programs, operating
13
  OCC, Policies and Procedures Manual, PPM 5310-3 (Rev.) (issued July 30, 2001 and made publicly
available in August 2002 through OCC Bulletin 2002-38).

                     BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                  14
                     Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                               policies, methods of operations, or management information
                               systems;

                           •   has serious compliance problems or substantial violations of
                               law; or

                           •   has disregarded, refused, or been unable to appropriately
                               respond to prior supervisory efforts to correct previously
                               identified serious problems or weaknesses.

                       OCC’s use of formal enforcement action depends on the presence
                       of one or more of these conditions. The decision is to be unrelated
                       to the bank’s overall rating, financial condition, or past
                       management cooperativeness or ability.

                       OCC’s “Enforcement Guidance for BSA/AML Program
                       Deficiencies”14 provides examples in which a cease and desist
                       order is appropriate, including situations in which a bank

                           •   lacks a BSA compliance program that adequately covers all
                               of the required program elements;

                           •   fails to implement a written BSA compliance program;

                           •   exhibits BSA compliance program deficiencies coupled with
                               aggravating factors (i.e., highly suspicious activity creating a
                               significant potential for money laundering or terrorist
                               financing);

                           •   fails to respond to previous supervisory warnings concerning
                               BSA compliance program deficiencies or continues a history
                               of program deficiencies, even when deficiencies are
                               dissimilar to those cited in the past; or

                           •   engages in systemic or pervasive BSA reporting or
                               recordkeeping violations.




14
     OCC Bulletin 2004-50 (November 10, 2004).

                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             15
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Findings

Finding 1   Despite Years of BSA Program Compliance Problems at
            Wells, OCC Did Not Take Formal Enforcement Action

            From 1999 through 2004, OCC examined the BSA compliance
            program at Wells and found inadequate compliance in a number of
            program areas and numerous and recurring weaknesses and
            deficiencies. Financial institution regulators such as OCC that
            identify violations in BSA programs are required to take formal
            enforcement action (i.e., issue a cease and desist order). However,
            OCC did not take formal enforcement action against Wells during
            this period, maintaining that the program inadequacies,
            deficiencies, and weaknesses did not rise to the level of a violation.
            In April 2005, using results from the 2004 examination, OCC took
            an informal enforcement action against Wells, its first BSA-
            program-related enforcement action against the bank.

            Wells’s BSA Program Problems From 1999 Through 2003

            In our review of OCC examinations of Wells from 1999 through
            2003, we found that OCC examiners reported numerous and
            recurring BSA program inadequacies, deficiencies, and
            weaknesses. Examples of areas within Wells where examiners
            found that BSA program requirements were not being met are
            discussed below.

            [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




            BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             16
            Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             17
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             18
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             19
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
BSA Officer

National banks are required by 12 CFR 21.21, as part of the
mandated BSA compliance program, to designate an individual or
individuals responsible for coordinating and monitoring day-to-day
compliance with BSA. This individual, the BSA Officer, should
coordinate and monitor BSA compliance throughout the bank.

[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             20
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             21
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             22
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




                      OCC’s Response to Wells’s Explanation

                      OCC examiners reviewed the points raised by Wells’s General
                      Counsel in a January 11, 2005, letter and disagreed. Wells
                      reiterated these points in a second letter on February 17. Excerpts
                      of the points raised by Wells and the examiners’ assessment are
                      provided in appendix 2. OCC’s Acting Chief Counsel,15 in a January
                      2005 e-mail to the EIC for Wells, stated that “the bank’s response
                      is not very convincing and evidences a denial/lack of understanding
                      of the depth of the problem that is pretty alarming. Need to move
                      ahead with the enforcement process.” Attorneys for OCC’s
                      Enforcement and Compliance Division also reviewed the bank’s
                      response to the examiners’ criticisms. In March 2005, OCC’s
                      Assistant Director of Enforcement and Compliance (who has since
                      retired from OCC) told OCC’s Deputy Comptroller for Large Bank
                      Supervision that Wells’s February response was “overly
                      argumentative, repetitive, and not very persuasive.”

                      Commenting on Wells’s presentation at the February 2005
                      meeting, an OCC examiner said that Wells officials made no
                      reference to BSA or broader compliance risk assessment issues at
                      the bank;
                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




                      With regard to concerns expressed by Wells’s CEO to the Acting
                      Comptroller about the manner in which OCC examiners
                      communicated with the bank, OCC senior management directed a
                      national bank examiner not connected with the Wells examination

15
  The Deputy Chief Counsel was Acting Chief Counsel during the period that the Chief Counsel was
Acting Comptroller.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                 23
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      to review communications between OCC examiners and the bank.
                      The examiner reviewed supervisory documents that OCC had
                      provided to Wells. The review did not include an assessment of the
                      related examination workpapers. Upon completion of the review, in
                      March 2005, the examiner concluded that Wells could have
                      received a “mixed message” from OCC examiners assigned to the
                      bank about its BSA performance. The examiner stated in a
                      memorandum to the Deputy Comptroller for Large Bank Supervision
                      that written feedback could have provided bank management with
                      the impression that a BSA issue was potentially significant but
                      narrow in scope and not worthy of the attention of Wells’s Board
                      of Directors. Based on our review of the memorandum and
                      interview of the national bank examiner, the nature of the “mixed
                      message” principally involved a concern that annual reports of
                      examination sent to the bank’s board of directors did not
                      specifically cite the BSA deficiencies reported in supervisor letters
                      and other communications with the bank. Instead, the reports of
                      examination discussed deficiencies in the bank’s corporate
                      compliance risk management which would cover a number of
                      compliance areas of which BSA was just one.

                      OIG Review of Communications Between OCC and Wells Fargo

                      Based on our review of communications between OCC and Wells,
                      we believe that the OCC examiners clearly communicated their
                      findings of BSA program inadequacies, deficiencies, and
                      weaknesses to the bank, and the seriousness of those findings.

                      We obtained and reviewed a schedule, prepared by an OCC Deputy
                      Comptroller, of 34 written communications from examiners to
                      Wells from January 2000 through February 2005, as well as the
                      communications themselves. We also interviewed OCC examiners
                      about their oral communications with Wells management regarding
                      BSA program deficiencies.

                      The schedule prepared by the OCC Deputy Comptroller showed
                      that OCC formally issued 26 of the 34 documents to Wells and had
                      discussed 33 of the 34 documents with the bank’s management.16
                      Of the 8 documents that were not formally issued, 7 were

16
  According to the Deputy Comptroller’s schedule, it could not be determined if 1 of the 34 documents
had been presented to Wells.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                 24
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       conclusion memoranda and other informal documentation. The
                       Deputy Comptroller’s analysis showed that the contents of these 7
                       documents had been communicated to bank management.

                       Collectively, the documents we reviewed covered OCC’s BSA-
                       related concerns in the areas of internal controls, independent
                       testing, and the BSA Officer. While we noted that the BSA
                       deficiencies cited in supervisory letters and other communications
                       were not specifically cited in annual reports of examination, those
                       reports did broadly summarize compliance management problems
                       at the bank. Accordingly, we did not see how the bank was given
                       a “mixed message.” The specific problems identified by the
                       examiners and communicated to the bank, as well as the dates and
                       means of communication, are summarized in appendix 3.

                       Why OCC Did Not Issue a Formal Enforcement Action

                       Besides concluding that Wells could have received a “mixed
                       message” from examiners, 17 OCC senior officials told us that they
                       had other reasons for not issuing a cease and desist order to the
                       bank. One reason cited by both the Acting Chief Counsel and the
                       Senior Deputy Comptroller for Large Bank Supervision was that
                       OCC examiners identified
                       [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                                                                    Furthermore, the Acting
                       Comptroller and the Senior Deputy Comptroller for Large Bank
                       Supervision told us that, in their opinion, Wells’s BSA-related
                       deficiencies were not systemic.18 The Senior Deputy Comptroller
                       for Large Bank Supervision also commented that Wells was the
                       largest filer of SARs among the banks regulated by OCC. These
                       OCC officials, however, never documented their basis for not
                       issuing a cease and desist order against Wells, including the basis


17
     [REDACTED – FOIA EXEMPTION 5, 5 U.S.C. §552(b)(5)]


18
  OCC officials we interviewed never defined what they meant by systemic or what it would take for
Wells’s BSA program to reach a systemic level and be considered serious enough to warrant a formal
enforcement action. However, the examiners documented the issues as systemic in the supervisory
documentation they prepared.

                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                  25
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
for their opinion that [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
§552(b)(8)] They said that the decision came down to a “judgment
call.”

[REDACTED – FOIA EXEMPTION 5, 5 U.S.C. §552(b)(5)]




Based on our review, we believe OCC examiners documented a
compelling case for citing Wells in violation of 12 CFR 21.21.
Although we agree that no aggravating factors (i.e., highly
suspicious activity creating a significant potential for money
laundering or terrorist financing) had been reported by the
examiners, the presence of aggravating factors is not a requirement
in the regulations or OCC’s enforcement guidance for taking formal
action. Furthermore, we concluded that OCC examiners adequately
communicated BSA deficiencies and weaknesses to the bank. We
found that OCC examiners offered strong support for BSA
violations.
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             26
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      We also believe that the examiners established that the BSA
                      problems at Wells were systemic.
                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                                                                             With respect
                      to Wells being the largest filer of SARs, we believe that the number
                      of SAR filings by a bank is not, by itself, a good predictor of BSA
                      compliance.
                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]

                                                         In short, Wells’s BSA compliance
                      program could not be relied upon to independently identify and
                      correct compliance deficiencies in its operations.

                      Issuance of Safety and Soundness Notice to Wells

                      On April 26, 2005, OCC took an informal, rather than formal,
                      enforcement action against Wells. Specifically, OCC issued a
                      “Notification of Failure to Meet Safety and Soundness Standards
                      and Safeguarding Customer Information Standards and Request for
                      Compliance Plan” (Part 30 Notification). This type of action is
                      generally used to address internal control issues related to safety
                      and soundness rather than BSA compliance, and it is not made
                      public. According to OCC, this decision was a “judgment call” that
                      required OCC to apply a technical legal standard to the facts at
                      issue, required Wells to begin immediately to expend the funds
                      necessary to remedy the problem. Failure to comply with a Part 30
                      safety and soundness plan is a basis for an enforceable order.

                      The Part 30 Notification informed Wells that its [REDACTED –
                      FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)] and BSA deficiencies
                      were significant.19 It also required the bank to respond to OCC with
                      a safety and soundness compliance plan detailing the steps that
                      the bank would take to correct these deficiencies and the

19
  The Part 30 Notification included matters in addition to BSA program deficiencies for which Wells
was directed to provide a corrective action plan. [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
§552(b)(8)]

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                    27
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      timeframe for completing those steps. The Part 30 Notification
                      referred to a supervisory letter dated February 3, 2005, and other
                      supervisory letters for details on the deficiencies in the bank’s
                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]
                      compliance with BSA.

                      Wells submitted a compliance management plan on July 26, 2005,
                      in accordance with the Part 30 Notification. In the submission,
                      Wells provided a strategic perspective of how the bank would
                      address deficiencies in [REDACTED – FOIA EXEMPTION 8, 5
                      U.S.C. §552(b)(8)] compliance with BSA within the following
                      categories: (1) leadership, (2) staffing, (3) BSA Officer, (4) risk
                      assessment, (5) BSA internal controls, (6) testing and internal
                      audit, (7) [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
                      §552(b)(8)], and (8) reporting. Wells provided target dates for
                      implementing planned BSA-related corrective actions with last
                      action to be completed in December 2006.

                      On October 13, 2005, OCC approved the plan. OCC plans to allow
                      the bank time to implement the recommendations before
                      scheduling follow-up examinations.

Finding 2             In Determining the Enforcement Action for Wells, OCC
                      Did Not Follow Its Usual Practice

                      When potential BSA violations are identified by an examiner, OCC’s
                      guidelines delineate how an enforcement action is supposed to be
                      handled. For example, after an examiner identifies a potential
                      violation(s) and recommends an enforcement action, and the
                      matter is reviewed by the Senior Deputy Comptroller for Large
                      Bank Supervision and the Large Bank Review Team,20 the process
                      then proceeds to legal counsel for final drafting of the enforcement
                      memorandum. From there, the proposed action is presented to
                      OCC’s WSRC to review the examiner’s material, including
                      supervisory history and strategy and the facts in the current case,
                      and to evaluate any policy issues or other concerns. This was not
                      the process followed in the Wells case, however.

20
   The Large Bank Review Team consists of the Assistant Director of Enforcement and Compliance, the
BSA Director, and the Deputy Comptroller for Large Bank Supervision. It was created in September
2004 to review OCC’s BSA/AML conclusions for large banks to ensure policy on enforcement is
followed consistently.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action               28
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      In late 2004, OCC’s EIC for Wells recommended that strong formal
                      enforcement action be taken against the bank for BSA violations. In
                      addition, until early February 2005, the Acting Comptroller, Acting
                      Chief Counsel, and Senior Deputy Comptroller were in agreement
                      that BSA violations existed and strong enforcement action was
                      needed. Accordingly, in preparation for a WSRC meeting scheduled
                      for February 10, 2005, an OCC staff attorney prepared an
                      enforcement memorandum for WSRC’s consideration,
                      recommending that a cease and desist order be issued to Wells
                      bank. However, following a meeting between the Acting
                      Comptroller and other senior OCC officials with Wells’s CEO on
                      February 9, 2005, senior OCC officials who had originally
                      supported a formal enforcement action no longer did so.
                      Subsequently, the Senior Deputy Comptroller decided not to issue
                      a cease and desist order and the OCC staff attorney rewrote the
                      enforcement memorandum to recommend a lesser, informal
                      enforcement action. This second memorandum was to be used to
                      present the Wells matter to WSRC in April 2005. Nevertheless, we
                      learned that at the April 2005 meeting of WSRC, OCC’s Deputy
                      Comptroller for Large Bank Supervision presented the final Wells
                      enforcement decision (issuance of an informal enforcement action)
                      to WSRC without seeking any WSRC input about the enforcement
                      action or whether it raised policy or other concerns.

                      OCC Guidance Requires That WSRC Be Involved in Evaluating
                      Enforcement Action

                      In commenting on an earlier draft of this report, OCC officials said
                      we misunderstood the role of the WSRC. OCC officials said that
                      the Senior Deputy Comptroller for Large Bank Supervision did not
                      need WSRC input to make a decision about an enforcement action.
                      However, we reviewed OCC’s guidance and found a requirement
                      for WSRC to review a proposed enforcement action for policy and
                      other concerns. 21

21
   We found OCC guidelines on the role of WSRC for large bank enforcement in a number of written
documents, including WSRC’s 1998 charter, and policy guidelines from 1999 forward. The guidelines
all require that proposed enforcement actions be reviewed by WSRC. In addition to the WSRC charter,
the guidelines include “Bank Secrecy Act Compliance Program” guidance issued by the Deputy Chief
Counsel on July 26, 1999; OCC Enforcement Action Policy (PPM 5310-3), dated July 30, 2001;
“Compliance Policy,” issued Dec. 1, 2002; and Committee on Bank Supervision guidance issued
March 27, 2003.


                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                29
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       According to OCC’s enforcement guidelines, WSRC is responsible
                       for evaluating any recommended enforcement action. The process
                       begins when, following an examination, an EIC recommends the
                       use of an enforcement action to address problems and concerns
                       identified at an assigned bank. For large banks, the final decision
                       on an enforcement action is made by OCC’s Senior Deputy
                       Comptroller for Large Bank Supervision. WSRC assists the
                       responsible OCC decision maker by assessing the underlying facts
                       and evaluating any policy issues or other concerns associated with
                       an enforcement action based on its assessment. WSRC also
                       provides advice on other matters that are unique or likely to be
                       highly visible. OCC’s Senior Deputy Comptroller for Bank
                       Supervision Operations annually appoints the members of WSRC,
                       which is chaired by the Deputy Comptroller for Special
                       Supervision/Fraud and includes key officials from a number of
                       areas,22 and approves its written charter and operating procedures.

                       Recommendations for enforcement action are generally presented
                       to WSRC by an OCC staff attorney, who prepares a presentation
                       package that includes a memorandum summarizing the supervisory
                       history, the history of previous enforcement actions, the facts in
                       the current case, an analysis of the facts, the recommended
                       enforcement action, legal support for the recommended action, the
                       supervisory strategy, and any other relevant issues. Following a
                       WSRC meeting, the presenter is supposed to prepare minutes of
                       the deliberations and the committee’s recommendations. The
                       presenter is to record this information and the final decision in an
                       OCC electronic supervisory database.

                       First Enforcement Memorandum for Wells Recommended a Cease
                       and Desist Order

                       A February 4, 2005, enforcement memorandum prepared by a staff
                       attorney with OCC’s Enforcement and Compliance Division outlined

22
   Regular members of the committee include (but are not limited to) the following senior OCC officials:
the Deputy Comptroller for Supervision Support, the Director for Special Supervision, the Director for
Enforcement and Compliance, the Deputy Chief Counsel with responsibility for enforcement and
compliance issues, and a Deputy Comptroller for Large Banks (membership on WSRC alternates among
the three who hold these positions).


                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                   30
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
the significant BSA noncompliance findings examiners had
identified at Wells from 2000 through 2004. Based on these
findings, the memorandum recommended that the bank be
presented with a cease and desist order to enter into by consent.

According to the memorandum, the examiners had determined that
the bank did not meet the minimum standards required by BSA
and, as a result, had violated both 12 CFR 21.21 (which states the
requirements of a bank’s BSA compliance program) and 12 CFR
21.11 (which states that the bank must report suspicious activity
that may involve money laundering and other BSA violations). The
memorandum highlighted the examiners’ findings discussed earlier
in this report (see finding 1). It also summarized Wells’s responses
dated January 11, 2005, to the examiners’ December 2004
supervisory letter.

The enforcement memorandum stated that Wells’s response had
two overall themes: (1) the bank is large and is always working to
improve, and (2) the examiners overstated the problems and want
unrealistic, immediate corrective action. The bank’s response also
included a legal analysis of the circumstances under which a cease
and desist order is mandated under 12 USC 1818 (which the OCC
attorney characterized as a “novel interpretation”). For example,
Wells said that a bank can only be considered to have failed to
maintain a BSA program if the design of the program is
unreasonable or has fundamental flaws. The OCC attorney
remarked in the memorandum that this interpretation would
effectively eliminate the need for a bank to implement or evaluate
the effectiveness of its BSA program. This, according to the staff
attorney, was a gross misinterpretation of the statute.

Subsequent to a Meeting Between the Acting Comptroller and
Wells’s CEO, Senior OCC Officials Modified Their Positions

Following the 2004 Wells compliance examination, OCC
headquarters officials appeared to be in consensus about Wells’s
BSA program deficiencies and the need to take strong, formal
enforcement action. This opinion changed subsequent to a
February 2005 meeting between the Acting Comptroller, other
senior OCC officials, and Wells’s CEO. A timeline of significant
events involving the Wells matter is summarized in appendix 4.


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             31
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      Senior OCC Officials Were in Consensus Early On in the
                      Enforcement Process

                      In a December 2004 e-mail,23 the Senior Deputy Comptroller for
                      Large Bank Supervision stated that he had met with the Acting
                      Chief Counsel and the Acting Comptroller on December 2, 2004,
                      and that the three were in full agreement that Wells was in
                      violation of 12 CFR 21.21 and that a formal enforcement action
                      against Wells was warranted.

                      Upon reviewing the facts with the Wells examination team, the
                      Assistant Director of Enforcement and Compliance Division at the
                      time also thought that OCC’s examination findings supported a
                      violation of 12 CFR 21.21. In an e-mail he stated, “Given the
                      seriousness and repetitiveness of the criticisms and cited
                      violations, the proposed cited violation of 21.21 is supportable
                      along with the proposed cited violation of 21.11.”

                      Documentation indicated that the opinion of the OCC BSA Director
                      was similar to that of the former Assistant Director of Enforcement
                      and Compliance and that the BSA Director supported a strong
                      penalty. He believed that OCC had substantive program issues with
                      Wells that should be escalated, and he recommended that the
                      supervisory letter draft reflect a 12 CFR 21.21 violation.

                      OCC Proposes Enforcement Action, Wells’s CEO Requests a
                      Meeting with OCC, and the Proposed Action Changes

                      On December 20, 2004, OCC issued a draft supervisory letter to
                      Wells detailing the deficiencies found during the 2004 compliance
                      examination and stating OCC’s intent to pursue a citation for
                      violations of 12 CFR 21.21. On January 11, 2005, Wells
                      responded to the draft, taking issue with the findings (see details in
                      finding 1). On February 3, 2005, OCC issued the final supervisory
                      letter to Wells and provided notification to the bank of its intention
                      to issue a cease and desist order. This notification, we were told,
                      prompted Wells’s CEO to request a meeting with the Acting
                      Comptroller. The request was granted, and on February 9, 2005,

23
 The e-mail was directed to the former Deputy Comptroller for Large Bank Supervision and the EIC for
Wells.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                32
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       the CEO and the bank’s General Counsel met in Washington, DC,
                       with OCC’s Acting Comptroller, Senior Deputy Comptroller for
                       Large Bank Supervision, and Deputy Comptroller for Large Bank
                       Supervision. OCC documents related to Wells that were provided
                       for our review did not include any written record of this meeting.

                       In our interview with the Senior Deputy Comptroller for Large Bank
                       Supervision regarding this meeting, he said that Wells’s CEO was
                       concerned about the issues discussed in the December 2004 draft
                       supervisory letter and that the bank was not being afforded due
                       process. In response, the Senior Deputy Comptroller for Large Bank
                       Supervision told Wells’s CEO that OCC would review the accuracy
                       of BSA issues reported to the bank over the last 5 years. He
                       assigned this task to the Deputy Comptroller for Large Bank
                       Supervision, and she assigned a national bank examiner to review
                       documents provided to Wells management for BSA supervisory
                       activities. The purpose of this review was to determine what
                       message OCC had conveyed to the bank about its BSA program.
                       As stated earlier, the review did not include a review of the
                       examination documentation.

                       Also, in April 2005, the Acting Comptroller prepared a handwritten
                       analysis to better understand Wells’s BSA issues and aid in the
                       decision of whether or not to issue a cease and desist order to
                       Wells. The analysis identified the bank’s lines of business,
                       categorized them as high risk or not, and summarized OCC’s
                       comments about the bank’s BSA/AML program. The Acting
                       Comptroller’s analysis, however, did not cite the basis for the risk
                       assigned to the business lines.24

                       Wells Is Removed From the February 2005 WSRC Agenda

                       The February 9, 2005, meeting between Wells’s CEO and OCC
                       officials appeared to be the turning point in moving OCC from a
                       formal to an informal enforcement action. Specifically, after the
                       meeting, OCC’s Deputy Comptroller for Large Bank Supervision
                       told the Director of Special Supervision to take the Wells matter off
                       of the agenda for the February 10, 2005, WSRC meeting. The
                       Acting Comptroller, Senior Deputy Comptroller for Large Bank


24
     [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]

                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             33
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Supervision, and Deputy Comptroller for Large Bank Supervision
told us that the reason for removing Wells from the WSRC agenda
was that Wells senior management had asked to present additional
information and they believed it would be more appropriate for
them to review this information before the matter was presented to
WSRC.

OCC Staff Attorney Revises Enforcement Memorandum

Following OCC senior management’s decision to remove the Wells
enforcement action from the WSRC meeting agenda, the staff
attorney who prepared the original February 2005 enforcement
memorandum discussed above revised the memorandum to
recommend an informal action. While we could not obtain a
consensus at OCC on who directed the staff attorney to rewrite
the memorandum, the attorney said that suggestions on needed
revisions came from both the former Assistant Director of
Enforcement and Compliance (her direct supervisor at the time) and
from the Acting Chief Counsel. In an interview, OCC’s Acting Chief
Counsel stated that he suggested editing the memorandum to
balance the recommendation for informal enforcement action with
the content of the memorandum. According to the attorney who
wrote the memorandum, the Acting Chief Counsel thought the
wording in the February memorandum was “too strong” and
overstated the bank’s program deficiencies. The staff attorney
received comments handwritten by the Deputy Chief Counsel
addressing the need to balance the April 12 memorandum because,
as written, the facts suggested a violation of 12 CFR 21.21.

On April 12, 2005, the staff attorney finalized the memorandum,
which no longer recommended a cease and desist enforcement
action. The memorandum instead recommended initiation of a
lesser, but unspecified, informal action. The rationale for
recommending an informal action, according to the revised
memorandum, was that the bank had provided OCC with additional
facts to mitigate the examiner’s findings; had taken steps to
improve its BSA program; and was not required to implement an
effective BSA program. This revised memorandum was to be used
at a WSRC meeting scheduled later in April 2005.




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             34
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      We compared the February and April memoranda and, among the
                      differences, noted the following:

                          •   The February memorandum noted deficiencies in the design
                              of the Wells BSA program, [REDACTED – FOIA EXEMPTION
                              8, 5 U.S.C. §552(b)(8)]                                 The
                              April memorandum also cited these deficiencies but stated
                              they were not severe enough to support a conclusion that
                              the program was inadequate.
                          •   Rather than identifying failure to implement a written BSA
                              program, as the February memorandum had, the April
                              memorandum referred to weaknesses in the bank’s
                              implementation of a written BSA program. According to the
                              April memorandum, these weaknesses were not significant
                              enough to support a formal enforcement action.
                          •   The April memorandum included a section, not included in
                              the February memorandum, that cited two supervisory
                              letters and two quarterly management letters issued during
                              2000 and 2002 that the bank contended would mitigate any
                              weaknesses in the bank’s 2004 BSA program. The issues
                              reported in these letters had no relationship to other
                              supervisory findings stated in both the February and April
                              memoranda.25

                      A notice of a BSA program violation and issuance of a cease and
                      desist order is also warranted when a bank fails to correct
                      previously reported program deficiencies. We believe that BSA
                      program deficiencies were adequately documented in OCC’s
                      communications to the bank. We identified seven occasions from
                      1999 to 2004 on which OCC communicated BSA/AML deficiencies
                      to Wells. Moreover, we believe that even without prior-year
                      deficiencies, the breadth and depth of deficiencies identified in the
                      2004 examination alone would have warranted citation of a
                      violation and issuance of a cease and desist order.




25
  The letters included positive examination results in the bank’s [REDACTED – FOIA EXEMPTION 8,
5 U.S.C. §552(b)(8)].                                                                          However,
these positive findings were in different lines of business than covered in the 2004 examination.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                   35
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       WSRC Did Not Discuss Wells

                       The Wells matter was included on the agenda for the April 14,
                       2005, WSRC meeting. OCC did not seek input from WSRC on the
                       proposed Wells enforcement action at this meeting. Instead, the
                       final enforcement action against Wells was decided outside this
                       process before the meeting was held.

                       In deciding before the WSRC meeting to take informal enforcement
                       action against Wells, OCC did not follow its usual practice. OCC
                       guidelines require that a planned enforcement action be presented
                       to WSRC for input from committee members before the
                       enforcement action is decided. OCC documentation that provides
                       this procedural and policy guidance includes the WSRC Charter, the
                       PPM, clarifying memoranda, OCC Bulletins, and a delegation matrix
                       – all in effect at the time of the Wells deliberation. Although the
                       guidelines are in certain areas inconsistent with one another, we
                       determined that the documents supported the following general
                       practice: to ensure consistency of actions nationwide, all Part 21
                       violations and/or enforcement actions against large banks based
                       principally on BSA issues should be presented to WSRC to receive
                       its input on whether the planned action raises policy or other
                       concerns. Thus, a customary element of the enforcement process
                       for Wells would have been to present the matter to WSRC for
                       discussion about whether the planned action raised, at a minimum,
                       any policy or other concerns.

                       Furthermore, contrary to its charter, we were told that minutes of
                       WSRC’s April 14, 2005, meeting were not prepared.26 Many of the
                       WSRC participants we interviewed did not take notes and could
                       not recall the details of the April 14 meeting; however, we
                       ascertained through our interviews that that the Deputy
                       Comptroller for Large Bank Supervision told WSRC that senior OCC
                       officials had looked at 5 years of supervisory history for Wells and
                       recognized communication breakdowns on both sides. She also

26
  In response to an earlier draft of this report, OCC officials provided us with a document that they said
represents the meeting’s minutes. However, the document contained only a listing of banks, including
Wells, and potential enforcement actions to be taken. The document did not indicate who was at the
meeting and what matters were discussed or raised. We do not believe this listing of banks and
enforcement action represents a general definition of minutes, i.e., an official record of what was said
or done during a meeting.

                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                    36
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
            said that the officials had identified areas of BSA strengths and
            weaknesses at the bank. The Deputy Comptroller told attendees at
            the meeting that the Part 30 Notification would lay out the issues
            that Wells needed to address.

            Notes documented by the OCC examiner who was a member of
            the Wells examination team disclosed that the examiners had never
            vetted the final decision on the lesser, informal enforcement action.
            The examiners expressed concern that OCC headquarters did not
            understand their frustrations with repeated BSA issues going
            uncorrected by Wells. During interviews, the examiners stated
            similar concerns.

Finding 3   OCC Did Not Keep FinCEN Fully Informed of the Potential
            BSA Violations at Wells and the Enforcement Action
            Taken

            We found that OCC did not properly notify FinCEN about the BSA
            deficiencies at Wells or its enforcement action decision in
            accordance with a September 2004 MOU between OCC and
            FinCEN. OCC made one telephone contact with FinCEN in
            December 2004 to notify FinCEN that a formal enforcement action
            was being considered against Wells, but provided no further
            information. In June 2005, FinCEN learned through a news article
            that OCC had instead taken an informal enforcement action against
            Wells.

            OCC officials told us that they did not believe that the results of
            the Wells examination were significant enough to report to FinCEN.
            Without such information, FinCEN was unable to concurrently
            analyze and evaluate the bank’s BSA deficiencies to consider
            whether the imposition of civil enforcement remedies under BSA
            may have been warranted.

            For FinCEN’s Office of Compliance to oversee the BSA compliance
            examination and enforcement activities of regulatory agencies,
            FinCEN entered into an MOU in September 2004 with the five




            BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             37
            Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      federal banking agencies, including OCC.27 The purpose of the
                      agreement is to enhance communication and coordination between
                      FinCEN and the regulators whenever BSA violations or program
                      issues are identified at financial institutions.

                      In accordance with the MOU, OCC is required to promptly notify
                      FinCEN of significant BSA violations or systemic or pervasive BSA
                      compliance program deficiencies in a regulated institution. Such
                      violations or deficiencies include reporting or recordkeeping
                      violations and situations in which the banking organization fails to
                      respond to a supervisory warning concerning BSA compliance
                      program deficiencies. FinCEN is also to be notified about a history
                      of program violations or deficiencies even when they are dissimilar
                      to those cited in prior reports of examination or supervisory
                      correspondence. A significant BSA violation includes action that
                      demonstrates willful or reckless disregard for BSA requirements or
                      creates a substantial risk of money laundering or financing of
                      terrorism within an institution.

                      In the case of Wells, OCC’s Acting Chief Counsel did notify
                      FinCEN, by telephone, about the potential BSA compliance program
                      violations in December 2004. However, OCC did not provide
                      FinCEN with portions of the written materials relating to the
                      significant BSA violations or deficiencies as required. OCC also did
                      not notify FinCEN when officials decided to take the informal
                      enforcement action. According to the MOU, OCC should have
                      given notice to FinCEN as soon as practicable but no later than 30
                      days after taking the action on April 26, 2005.28

                      FinCEN’s Associate Director of Regulatory Policy and Programs
                      Division confirmed to us that he first became aware of the Wells
                      matter when he received a phone call from OCC in December
                      2004. According to the official, the OCC Acting Chief Counsel told
                      him that the examination was ongoing, that the process was in
                      negotiation, and that a cease and desist order against Wells was a

27
   The other federal banking agencies that signed the MOU with FinCEN are the Office of Thrift
Supervision, the Federal Deposit Insurance Corporation, the Board of Governors of the Federal Reserve
System, and the National Credit Union Administration.
28
   For public enforcement actions, the MOU requires notification to FinCEN before the action is made
public.


                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                  38
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      possibility. The FinCEN official stated that it was not until June 22,
                      2005, about 6 months later, that FinCEN heard about the matter
                      again – this time from a news article, which reported that an
                      informal enforcement action had been taken against the bank.29

                      After reading the article, the FinCEN official asked the OCC
                      Director of Special Supervision whether the Wells matter would be
                      sent to FinCEN in accordance with the MOU. The Director of
                      Special Supervision said that since there was not a finding with
                      significant BSA violations or deficiencies, and issues were going to
                      be addressed in an informal enforcement action, the matter would
                      be reported to FinCEN in the next quarterly report pursuant to the
                      MOU.30

                      In response to a July 29, 2005, request by FinCEN’s Office of
                      Compliance, OCC has since provided FinCEN with (1) the
                      December 2004 report of examination on Wells and the related
                      February 2005 supervisory letter, (2) the April 2005 Part 30
                      Notification issued by OCC to Wells, and (3) the bank’s approved
                      compliance plan.

                      During our audit fieldwork, we were told that FinCEN’s Office of
                      Compliance was reviewing the bank’s BSA program deficiencies to
                      determine if civil money penalties should be assessed against
                      Wells. In April 2006, FinCEN issued the bank a warning letter
                      stating that FinCEN planned to monitor Wells’s progress in
                      improving its BSA program. The letter also stated that nothing
                      precludes FinCEN from seeking further action if Wells fails to
                      implement corrections.

                      As a result of a series of subsequent contacts between OCC and
                      FinCEN senior officials to clarify the issues related to the Wells
                      bank examination and enforcement action, OCC agreed in the
                      future to provide FinCEN with information on all formal and
                      informal actions based on BSA-related violations regardless of
                      whether a program violation was cited.

29
   The OCC Acting Chief Counsel told us that he telephoned the FinCEN Director on or about June 22,
2005, the day that the article was published.
30
   In accordance with the MOU, within 45 days after the end of each calendar quarter, OCC is to
provide a report to FinCEN that includes the number of enforcement actions by category taken to
address BSA compliance.

                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                39
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
              In August 2005, OCC established an internal procedure to
              implement the September 2004 MOU and prevent the type of
              miscommunication that happened with Wells from occurring in the
              future. Under the procedure, titled Sharing Information with
              FinCEN, OCC designated the Director of Special Supervision as the
              primary contact for information sharing. The procedure states that
              OCC informally agreed to provide certain information to FinCEN in
              all cases in which OCC decides to take a formal or informal
              enforcement action to address identified BSA issues of concern.
              According to the procedure, FinCEN is to be notified about any
              banks presented to WSRC. Following the WSRC presentation and
              approval of the final enforcement action by the responsible Senior
              Deputy Comptroller, OCC is to provide this information to FinCEN.
              Also, serious BSA deficiencies found during an examination are to
              be promptly reported to FinCEN through the OCC Director of
              Special Supervision.

Conclusions

              We believe that OCC should have acted more quickly and forcefully
              to require Wells to strengthen its BSA compliance. OCC’s
              examiners for Wells documented and communicated significant and
              repeat deficiencies over a number of years that eventually led them
              in 2004 to recommend formal enforcement action. Additional
              information provided by the bank as to why OCC should not
              impose a cease and desist order was, in the words of one OCC
              official, “overly argumentative, repetitive, and not very
              persuasive.” We agree. While OCC senior officials in headquarters
              initially supported the examiners’ recommendation, the officials
              changed their minds and proceeded with a lesser enforcement
              action, but could not offer a compelling reason for overruling the
              examiners.

              Also troublesome with respect to Wells was the exclusion of
              WSRC from the deliberative process and the lack of a written
              record (minutes) of what happened during the meeting in which the
              Wells matter was to be presented to WSRC. We are also concerned
              that OCC’s failure to take formal enforcement action against Wells
              may result in a perception by other banks that OCC will not take
              forceful action for BSA violations, including repeat violations, when

              BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             40
              Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
warranted, or that OCC is inconsistent in how it enforces BSA
compliance. To underscore this potential perception, Alert Global
Media recently advertised a series of seminars on its Web site
(Moneylaundering.com) that included as a topic “How Wells Fargo
escaped OCC sanctions despite years of poor compliance.”

In addition to weakening the BSA program and the nation’s ability
to fight money laundering and terrorist financing, OCC’s failure to
act forcefully and in accordance with the law may (1) lead other
banks that are dealt with more forcefully to believe that they are
being treated inequitably; (2) encourage other banks to resist
enforcement action; and (3) create morale problems among
examination staff, who may believe that their recommendations for
forceful action may be overruled outside of OCC’s normal
deliberative process. In addition, the MOU between OCC and
FinCEN did not work during this important test. Wells’s BSA
program inadequacies, deficiencies, and weaknesses were clearly
significant enough to warrant notification of FinCEN.

It is important to note that since the Wells enforcement action,
OCC has renewed its emphasis on national bank BSA/AML
compliance. For example, Comptroller Dugan, in a speech before
the November 2005 American Bankers Association and American
Bar Association Money Laundering Enforcement Conference, stated
that banks should (1) establish a culture of compliance starting at
the top of the organization, (2) know their risks, (3) design and
implement a BSA/AML compliance program commensurate with
their risks, and (4) pay attention to what the examiners tell the
bank and not ignore supervisory warnings. He concluded the
speech by stating that everyone shares the common goal of better
BSA/AML supervision and compliance.

The Comptroller also communicated how he planned to enhance
the BSA/AML supervision program at OCC in a November 14,
2005, letter to the Chairman of the Committee on Banking,
Housing and Urban Affairs. The Comptroller stated that one of his
top priorities is the review and assessment of the BSA/AML
supervision program. He explained that for the short term, OCC
had taken a series of steps to better assess the BSA/AML
compliance risks currently confronting individual banks. For the
long term, he said, OCC has taken a set of comprehensive


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             41
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                     initiatives to make the necessary and enduring changes to the
                     BSA/AML supervisory process. The initiatives are three-fold:
                     (1) strengthen OCC BSA/AML examinations, (2) enhance OCC
                     resources and expertise devoted to BSA/AML supervision, and
                     (3) provide clear and consistent expectations about OCC’s
                     BSA/AML supervision to the industry. The Comptroller also told
                     Congress that OCC must be firm and consistent in its expectations
                     that national banks have strong BSA/AML compliance programs,
                     but also be fair in responding to potential problems and
                     weaknesses. He stressed the need for clear communications
                     throughout the examination process and the need for examiners to
                     make supervisory and enforcement recommendations based solely
                     on the facts and circumstances of each case.

                     In December 2005 OCC publicly issued, as an OCC Bulletin, the
                     internal procedures it will follow for taking enforcement actions for
                     BSA violations.31 The Bulletin reiterated that when BSA deficiencies
                     rise to the level of a BSA compliance program violation under
                     12 CFR 21.21, OCC is required to issue a cease and desist order
                     and that OCC may take formal or informal enforcement action even
                     when facts do not support citation of a BSA compliance program
                     violation. The Bulletin described a process for taking administrative
                     enforcement action against banks for BSA violations that consists
                     of six stages: (1) preliminary assessment of the facts and
                     discussion with bank management; (2) additional reviews by OCC
                     staff with expertise in BSA issues; (3) written findings in draft that
                     are provided to the bank for response; (4) presentation before
                     WSRC; (5) final decision by the responsible Senior Deputy
                     Comptroller; and (6) initiation of the BSA enforcement action,
                     including referral to FinCEN if civil money penalties are warranted.
                     In the Bulletin, OCC cautioned that while this was the general
                     process, OCC may deviate from it in certain cases, such as where
                     a developing situation in a bank requires immediate action, other
                     unusual or exigent circumstances are present, or intervening
                     developments require a different course of action.

                     We believe that OCC’s public disclosure of this process is a
                     positive step to help ensure that enforcement actions based on
                     BSA violations are measured, fair, and fully informed. However, we

31
  OCC Bulletin 2005-45, “Process for Taking Administrative Enforcement Actions Against Banks Based
on BSA Violations” (December 23, 2005).

                     BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action               42
                     Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
             believe that it is important for OCC to ensure that its deliberative
             review is fully documented, including its review in cases in which a
             lesser enforcement action is taken than the action recommended
             by lower level reviewers and WSRC. A basic premise of
             government accountability is that a complete record be maintained
             of decisions made, the basis for those decisions, and the parties
             responsible for making those decisions. Such a record was not
             maintained in the case of Wells.

Recommendations

             We recommend the Comptroller of the Currency do the following:

             1.      Closely monitor Wells’s implementation of its BSA
                     compliance plan and, if implementation is not adequate or
                     timely, swiftly take appropriate formal enforcement action
                     (e.g., a cease and desist order).
                     Management Comments OCC concurs with this
                     recommendation. The Comptroller stated that the Part 30
                     safety and soundness action required the bank to develop a
                     compliance plan and begin immediately to expend the
                     substantial sums necessary to remedy the problem. OCC
                     emphasized that failure to comply with the BSA compliance
                     plan is a basis for an order enforceable by civil monetary
                     penalties and court injunction.

                     Subsequent to receiving the management response, OCC’s
                     Deputy Comptroller for Large Bank Supervision explained
                     that OCC is closely monitoring Wells’s implementation of its
                     BSA compliance plan, and that OCC performs both targeted
                     and ongoing supervisory exam activities to assess Wells’s
                     progress. She stated that to date, Wells has made significant
                     strides towards compliance with the BSA-related portions of
                     the April 26, 2005, Part 30 notice. She also stated that the
                     bank’s actions should be completed by December 31, 2006,
                     and OCC’s supervisory activities to assess compliance are
                     quite extensive and run through the third quarter of the year
                     2007.

                     OIG Comment OCC’s actions to date and those planned as
                     described meet the intent of our recommendation. OCC

             BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             43
             Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
        agreed to provide additional details regarding a target date
        for assessing the adequacy and timeliness of Wells’s
        implementation of its compliance plan. Wells’s compliance
        plan includes target dates for implementing aspects of the
        BSA-related corrective actions, with the last action to be
        completed December 2006. OCC has supervisory activities
        planned through the third quarter of fiscal year 2007 to
        assess compliance with the corrective actions detailed in the
        bank’s plan. Should Wells’s corrective actions not be
        adequate, OCC will need to take the appropriate
        enforcement action.

2.      Continue to update and provide relevant documentation to
        FinCEN on Wells’s progress toward improving compliance
        with BSA program requirements.
        Management Comments OCC concurs with this
        recommendation. Although OCC did not provide detail of
        how this would be implemented in its written response, at
        our request OCC provided a follow-up e-mail with an
        explanation from the Director of Special Supervision, OCC’s
        designated point of contact with FinCEN, who stated he will
        provide FinCEN with ongoing information regarding any final
        BSA related supervisory activities and decisions as required
        under the MOU. As also stated in the e-mail, when FinCEN
        wants any update on Wells, he will contact Large Bank
        Supervision for a response and obtain any supporting
        information to forward to FinCEN.

        OIG Comment OCC’s plan for communicating with FinCEN
        as described in the follow-up e-mail, if done, will satisfy the
        intent of our recommendation.

3.      Ensure that senior OCC management officials follow OCC
        guidelines when handling future bank noncompliance with
        BSA/AML regulations, and obtain WSRC input before
        deciding on enforcement action.
        Management Comments OCC concurs with the
        recommendation. The Comptroller states in the written
        response that he had reviewed OCC’s procedures and
        reached a similar conclusion about their ambiguity and lack

BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             44
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                                  of transparency. In this regard, he initiated a number of
                                  steps to enhance BSA/AML supervision at the OCC, and he
                                  has committed to Congress that the OCC will be firm and
                                  consistent in its expectations that national banks have
                                  strong compliance programs. The Comptroller has stressed
                                  the need for open communication between the bank and
                                  OCC, and the need for supervisory and enforcement
                                  recommendations and actions to be based on all the relevant
                                  facts and circumstances of each case. OCC clarified and in
                                  some respects revised internal procedures it will follow in
                                  taking enforcement actions for BSA/AML violations in an
                                  OCC Bulletin.32

                                  OIG Comment We believe the Comptroller’s commitment to
                                  clarify procedures and add transparency to the enforcement
                                  process are positive steps. The procedures OCC describes in
                                  its Bulletin, if followed, satisfy the intent of our
                                  recommendation.

                          4.      Ensure that a record (minutes) is prepared of WSRC
                                  meetings in accordance with the provisions of the WSRC
                                  charter. This record should include the deliberations,
                                  recommendation, and the final decision made by the
                                  committee and should be included in OCC's electronic
                                  supervisory database.
                                  Management Comments OCC concurs with the basic
                                  purpose of the recommendation, which is to ensure that the
                                  basis for final decisions and actions are appropriately
                                  documented, particularly where differing views were
                                  expressed during the review process. The Comptroller stated
                                  that the basis for OCC’s ultimate actions must be properly
                                  documented and this type of documentation was wanting in
                                  this case. OCC, however, does not believe that this
                                  information should be archived through detailed minutes of
                                  the WSRC deliberations. The concern is that such a
                                  requirement would have the counterproductive effect of
                                  chilling open and candid discussion of the merits of particular
                                  proposed enforcement actions which would be detrimental
                                  to the decision-making process in enforcement cases. The

32
     The details of the bulletin are described on page 42.

                          BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             45
                          Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
        Comptroller stated that the basis for a final enforcement
        action determination should be documented in the
        memorandum that describes the “case” to the WSRC, and/or
        any supplementary explanation for the decision provided by
        the responsible Senior Deputy Comptroller.

        OIG Comment We agree that a record of specific comments
        by each individual at the meeting is unnecessary, and as
        discussed in the written response, such a record could have
        a chilling affect on deliberations of the WSRC. We do
        believe, however, that all individuals in attendance should be
        listed. OCC’s commitment to recording the issues discussed
        and the rationale for the enforcement action decision and the
        final WSRC decision meets the intent of our
        recommendation.

5.      Refer all examinations with potential BSA violations to
        FinCEN in accordance with the provisions of the MOU. A
        process to monitor compliance with the MOU should also be
        established.

        Management Comments OCC concurs with the
        recommendation. OCC has revised the internal procedures it
        will follow in taking enforcement actions for BSA/AML
        violations and made these procedures publicly available in an
        OCC Bulletin, which is discussed on page 42 of this report.

        OIG Comment We determined, and FinCEN officials
        concurred, that Wells BSA deficiencies should have been
        reported to FinCEN when OCC was deliberating the
        enforcement action. We believe that OCC’s corrective action
        to keep FinCEN more fully informed about banks with serious
        BSA deficiencies during the deliberative process, if fully
        implemented, will satisfy the intent of our recommendation.




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             46
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                                      ******



We would like to extend our appreciation to OCC for its
cooperation and courtesies extended to our audit staff during the
audit. If you have any questions, please contact me at
(617) 223-8640 or Sharon Torosian, Audit Manager, at
(617) 223-8642. Major contributors are listed in appendix 6.



/s/
Donald P. Benson
Director




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             47
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 1
Objective, Scope, and Methodology




The objective of this audit was to determine if the Office of the
Comptroller of the Currency (OCC) took appropriate enforcement
action against Wells Fargo Bank, N.A. (Wells), considering the
history and seriousness of Bank Secrecy Act (BSA) program
deficiencies found during compliance examinations from 1999
through 2004.

Interviews

To identify supervisory activities, responsibilities, strategies,
tracking systems, and resources dedicated to ensure BSA
compliance at Wells, we interviewed officials and staff at OCC
headquarters in Washington, DC, and at the OCC resident office at
Wells in San Francisco, CA. In addition, senior OCC headquarters
officials, including the Acting Comptroller, the Senior Deputy
Comptroller of Large Bank Supervision, and the Acting Chief
Counsel, gave us an overview of the decision-making process that
resulted in the enforcement action taken against Wells. The
examiners in the San Francisco office provided information on their
BSA examinations at Wells and the events involving OCC
management, bank management, and the examination team. The
interviews enabled us to gain information on each individual’s
knowledge and level of involvement with the OCC examination of
Wells and the ensuing enforcement action.

We interviewed OCC officials who were present at the Washington
Supervision Review Committee (WSRC) meeting on April 14, 2005,
to gain insight about the presentation of the Wells case. In
addition, we interviewed officials with the Financial Crimes
Enforcement Network’s (FinCEN) Regulatory Policy and Programs
Division to determine their knowledge of and involvement with the
Wells case in accordance with the MOU between FinCEN and OCC.
We also interviewed the Chief Executive Officer of Wells. The
bank’s General Counsel was present during this interview.

Field Office Visits and Data Analysis

We requested from the San Francisco examiners any and all
documentation pertaining to the BSA examinations at Wells from
1999 through 2004. We asked OCC headquarters officials to
provide all documentation related to the enforcement action taken


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             48
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 1
Objective, Scope, and Methodology




against the bank. We received and reviewed examiner workpapers,
OCC correspondence with the bank, OCC management reports,
policies and procedures, examination guidance, and e-mails related
to BSA compliance and enforcement. OCC officials and staff,
including the Acting Comptroller, provided the OIG audit team with
their personal files on the Wells BSA examination that included the
above documentation along with e-mail correspondence,
memoranda, and handwritten notes. Relevant documentation was
also provided after our exit conference. OCC officials represented
to us that we were provided all OCC documentation related to
Wells. While nothing came to our attention indicating that
additional documentation might exist, there were no specific audit
procedures that we could perform to ensure that the
documentation provided was complete.

We also analyzed (1) applicable laws and regulations related to
BSA and the USA PATRIOT Act, (2) BSA formal and informal
enforcement actions against other banks, (3) past BSA deficiencies
and principal enforcement actions against Wells, (4) OCC’s analysis
of WSRC recommendations for other BSA cases presented to the
committee, (5) OCC’s oversight of and communications to Wells,
(6) the Part 30 Notification issued to Wells, and (7) Wells’s
corrective action plan provided to OCC in response to the Part 30
Notification.

We performed our audit fieldwork from July 2005 through April
2006. We conducted our audit in accordance with generally
accepted government auditing standards.




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             49
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 2
Points Raised by Wells in Response to OCC’s Findings and OCC Examiner
Response


In response to the Office of the Comptroller of the Currency’s
(OCC) 2004 examination findings, the General Counsel of Wells
Fargo Bank, N.A. (Wells) defended the bank’s Bank Secrecy Act
(BSA) program in a letter to the OCC examiner-in-charge (EIC)
dated January 11, 2005. OCC resident staff assessed the points
raised by Wells. In an OCC memorandum dated January 19, 2005,
the OCC EIC provided OCC headquarters officials an overview of
the bank’s response along with the resident staff’s analysis. A
synopsis of key points of the OCC examiners’ analysis is presented
below.

[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             50
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 2
Points Raised by Wells in Response to OCC’s Findings and OCC Examiner
Response


[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             51
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 3
BSA Program Deficiencies Communicated by OCC to Wells




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             52
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 3
BSA Program Deficiencies Communicated by OCC to Wells




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             53
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 3
BSA Program Deficiencies Communicated by OCC to Wells




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             54
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 3
BSA Program Deficiencies Communicated by OCC to Wells




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             55
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 3
BSA Program Deficiencies Communicated by OCC to Wells




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             56
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 4
Timeline of Significant Events During 2004 and 2005 Involving OCC’s
Examination of Wells and Enforcement Action



 Date                        Event
 March-June 2004             Office of the Comptroller of the Currency (OCC)
                             examiners perform Bank Secrecy Act (BSA)
                             compliance examination at Wells Fargo Bank,
                             N.A. (Wells).
 July-December 2004          OCC’s examiner-in-charge (EIC) for Wells works
                             on drafting supervisory letter detailing BSA
                             program violations.
 September-                  OCC creates a Large Bank Review Team and
 December 2004               deliberates on Wells’s BSA program problems
                             leading up to issuance of the draft supervisory
                             letter.
 November 15, 2004           Wells’s CEO meets with OCC’s Acting
                             Comptroller and Senior Deputy Comptroller for
                             Large Bank Supervision to discuss issues. The
                             CEO expressed concern about BSA and other
                             issues being communicated by the examiners to
                             the bank.
 December 17, 2004           OCC issues a Supervisory Status Report
                             (formerly known as a Quarterly Management
                             Letter) for activities from April 1, 2004, to
                             November 1, 2004, to Wells with notification of
                             possible 12 CFR 21.21 violations.
 December 20, 2004           EIC provides draft supervisory letter to Wells,
                             which details violations and advises Wells of
                             OCC’s intent to pursue citation for
                             12 CFR 21.21 violations.
 December 21, 2004           Acting Chief Counsel e-mails the Senior Deputy
                             Comptroller, Deputy Comptroller, and EIC at
                             Wells to notify them that he contacted FinCEN
                             to give it an advanced warning of the Wells
                             matter.
 January 11, 2005            Wells responds to the December 20, 2004,
                             draft supervisory letter, disagreeing with OCC’s
                             findings.
 January 19, 2005            EIC prepares a memorandum to the file that
                             analyzes each of the points made by Wells in its
                             January 11, 2005, letter. In the analysis, the
                             examiner refutes all points on which the bank
                             disagreed with OCC’s examination findings.
 February 3, 2005            EIC issues the final supervisory letter notifying
                             Wells of OCC’s intent to issue a cease and
                             desist order.




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                57
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                      Appendix 4
                      Timeline of Significant Events During 2004 and 2005 Involving OCC’s
                      Examination of Wells and Enforcement Action



                       Date                        Event
                       February 4, 2005            Date of OCC staff attorney’s draft
                                                   memorandum to WSRC recommending that
                                                   Wells be cited for violations of 12 CFR 21.21
                                                   and issued a cease and desist order.
                       February 9, 2005            Wells’s CEO meets in Washington, DC, with
                                                   OCC’s Acting Comptroller, Senior Deputy
                                                   Comptroller for Large Bank Supervision, and
                                                   Deputy Comptroller for Large Bank Supervision
                                                   to discuss issues. Deputy Comptroller instructs
                                                   the Director of the Enforcement and Compliance
                                                   Division to pull Wells from WSRC’s
                                                   February 10, 2005, agenda.
                       February 10, 2005           Scheduled WSRC meeting is held, but Wells
                                                   matter is postponed.
                       February 17, 2005           Wells provides OCC with a second response to
                                                   OCC’s draft supervisory letter. The Acting
                                                   Comptroller had requested Wells provide the
                                                   information in the January 11, 2005 letter in a
                                                   format that would match the OCC’s findings
                                                   with the bank’s response. The second letter
                                                   reiterated in a chart format the comments of
                                                   Wells’s January 11, 2005, letter.33
                       February-March              At the request of the Deputy Comptroller, a
                       2005                        national bank examiner with no connection to
                                                   the Wells examination analyzes OCC’s
                                                   communications to Wells. The examiner
                                                   concludes that Wells received mixed messages
                                                   and that examination results were not provided
                                                   to bank management in several cases.34




33
   We compared the January 11, 2005, and February 17, 2005, correspondences and found no
significant differences in the information reported by the bank.
34
   For example, the national bank examiner stated that OCC did not issue supervisory letters to bank
management with the results of OCC’s first quarter 2001 Currency Transaction Report processing
review and third quarter 2002 BSA related examinations of enhanced due diligence for Internet,
International, and Private Banking services. We found, however, that in the years 2001 and 2002 these
results were discussed with bank management. Also, we found that [REDACTED – FOIA EXEMPTION
8, 5 U.S.C. §552(b)(8)]                                               were discussed in 2000 and 2002
supervisory letters and quarterly management letters.


                      BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                58
                      Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 4
Timeline of Significant Events During 2004 and 2005 Involving OCC’s
Examination of Wells and Enforcement Action



 Date                          Event
 February 22, 2005             The Deputy Comptroller meets with the audit
                               committee of the Wells’s board of directors to
                               inform the bank that the BSA issues are
                               undergoing internal review and that a final
                               decision on enforcement has not yet been
                               reached.
 March 2005                    The Senior Deputy Comptroller for Large Bank
                               Supervision decides that Wells’s BSA program
                               deficiencies do not constitute a violation of
                               12 CFR 21.21. OCC decides to take an informal
                               enforcement action against Wells (Part 30
                               Notification). The Senior Deputy Comptroller
                               contacts Wells’s CEO to inform him of this
                               decision.
 March 31, 2005                The Wells EIC’s 5-year rotation ends and the
                               EIC is reassigned to other duties.
 April 12, 2005                Date of OCC staff attorney’s revised
                               memorandum to WSRC recommending that
                               OCC (1) not cite a violation of 12 CFR 21.21
                               against Wells and (2) initiate an enforcement
                               action less than a cease and desist order to
                               address the bank’s BSA/AML deficiencies,
                               compliance management deficiencies, and
                               information security issues.
 April 14, 2005                WSRC meeting is held, during which the
                               committee is informed that the Wells
                               enforcement decision has been made.
 April 26, 2005                Part 30 Notification is issued to Wells.
 June 22, 2005                 OCC’s Acting Chief Counsel indicated the
                               FinCEN Director was telephoned on or
                               about this day about the informal action
                               issued to Wells.
 July 26, 2005                 Wells provides OCC with Part 30 plan within
                               the required timeframe.
 October 10, 2005              Wells provides OCC with an amended Part 30
                               plan.
 October 13, 2005              OCC approves Wells’s Part 30 plan.
 Source: OIG Analysis of OCC Data.




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                 59
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       Appendix 5
                       Management Response




Note: OIG Comments
appear in Appendix 6




                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             60
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 5
Management Response




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             61
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 5
Management Response




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             62
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 5
Management Response




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             63
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                Appendix 5
                Management Response




OIG Comment 1



OIG Comment 2




OIG Comment 3


OIG Comment 4




OIG Comment 5




                BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             64
                Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                Appendix 5
                Management Response




OIG Comment 6




OIG Comment 7




                BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             65
                Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                 Appendix 5
                 Management Response




OIG Comment 18



OIG Comment 19



OIG Comment 20
OIG Comment 21


OIG Comment 22
OIG Comment 23



OIG Comment 24
OIG Comment 25
OIG Comment 26




                 BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             68
                 Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




OIG Comment 1 As stated in the report, OCC examiners found and
documented numerous and recurring deficiencies in Wells’s BSA
compliance program from 1999 through 2004. In late 2004, the
OCC examiner-in-charge recommended OCC take enforcement
action against Wells. In February 2005, with senior management
concurrence, OCC’s Enforcement and Compliance Division
prepared an enforcement memorandum that documented problems
and recommended a cease and desist order for a violation of
12 CFR 21.21. Members of the Large Bank Review team,
comprised of more senior OCC officials, also thought that OCC’s
examination findings supported a violation of 12 CFR 21.21. Later,
when OCC management decided instead to issue an informal Part
30 enforcement action, the reasons were not documented. We
stated in the report the reasons OCC senior officials provided
during our interviews for not issuing a cease and desist order to the
bank. However, as stated, these same OCC officials never
documented their basis for not issuing a cease and desist order
against Wells, saying, in the end, that it came down to a
“judgment call” and that they believed the deficiencies did not rise
to the level of a program violation. We did not see evidence that
the accuracy of the examiners findings were in question.

OIG Comment 2 The report provides the sequence of events
occurring after the meeting between senior OCC officials and the
Wells CEO. The report also includes as appendix 4 a timeline of
significant events involving Wells’s examination and enforcement
action.

OIG Comment 3 Our report does state that the reason for removing
Wells from the WSRC agenda was that Wells’s senior management
had asked to present additional information and senior OCC
officials believed it would be more appropriate for them to review
this information before the matter was presented to WSRC. We
believe this statement is sufficient for the reader to ascertain that
the information was being reviewed.

OIG Comment 4 The report does not intend to imply that there was
anything unusual about managers in OCC’s legal department
editing or reviewing the work of an OCC staff attorney and


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             69
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




recommending changes. As discussed in our report, the staff
attorney who prepared the original February 4, 2005, enforcement
memorandum revised the memorandum issued on April 12, 2005,
to recommend an informal action. While we could not obtain clarity
from our interviews of OCC senior officials as to who directed the
staff attorney to revise the memorandum from a formal
enforcement action to an informal action, what is clear is that the
staff attorney did not make the decision independently.

OIG Comment 5 The report presents the opinions of OCC senior
management, who cited these results, and OCC examiners, who
believed communications to the bank were adequate. We
acknowledge that differences in judgment can exist. However,
based on our review of the OCC communications to the bank, we
believe they clearly describe the deficiencies found, were
addressed to appropriate levels in bank management, and the
concerns about a “mixed message” was overstated.

OIG Comment 6 The report states that OCC senior officials wanted
to review additional information before OCC issued a cease and
desist order to the bank. The report also includes the issues that
OCC officials cited that precluded them from issuing a cease and
desist order to the bank. We believe this allows the reader to
understand the different opinions that existed when determining
the appropriate enforcement action to take and that it was,
according to senior OCC officials, ultimately a judgment call. We
were at a disadvantage in providing additional details about this
case because OCC did not document its deliberative process or the
rationale for certain statements – such as the Acting Comptroller’s
statement that [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
§552(b)(8)] was low risk.

OIG Comment 7 The report states that banks must establish and
maintain a BSA compliance program that at a minimum includes a
system of internal controls to assure ongoing compliance,
independent testing for compliance conducted by bank personnel or
an outside party, designation of an individual responsible for
coordinating and monitoring daily compliance, and training for
appropriate personnel. These minimum requirements need to be
established and maintained for a bank to have a program that is
reasonably designed to assure and monitor compliance with


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             70
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




recordkeeping and reporting requirements of BSA. OCC examiners
found deficiencies in Wells’s compliance with these minimum
requirements.
The deficiencies identified by the examiners were summarized in
the enforcement memorandum which was to be presented to the
WSRC on February 10, 2005, before the Wells case was
withdrawn from the agenda. This memorandum states that
pursuant to 12 CFR 21.21, the bank failed to implement an
adequate BSA compliance program, [REDACTED – FOIA
EXEMPTION 8, 5 U.S.C. §552(b)(8)]                         In
addition, the memorandum states that the bank had notable
deficiencies in the design of its BSA program, including, but not
limited to, [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
§552(b)(8)]

OCC Bulletin 2004-50 states that a statutory mandate exists that
instructs OCC to issue a cease and desist order when a bank fails
to correct any problem with its BSA compliance program, which
was previously cited in a report of examination or other supervisory
correspondence. The Bulletin includes examples of problems in
which a violation citation and accompanying cease and desist are
appropriate.
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




We revised the report to include the requirement that a bank needs
to provide for the continued administration of a program that is
reasonably designed and maintained to assure and monitor
compliance with the recordkeeping and reporting requirements of
BSA. We also revised the report to omit “without exception” when
we discuss OCC guidance for taking enforcement action against
banks that have serious deficiencies in programs or are
noncompliant with BSA regulations. We believe our final report


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             71
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




now properly depicts the deliberation that exists in OCC’s
enforcement action process.

OIG Comment 8 As stated in the report, the final decision on an
enforcement action is made by OCC’s Senior Deputy Comptroller
for Large Banks Supervision. For Large Bank Supervision, WSRC
assists the responsible OCC decision maker by assessing the
underlying facts and evaluating policy issues or other concerns
associated with an enforcement action based on its assessment.
The report also states that WSRC, to ensure consistency of actions
nationwide, is responsible for evaluating any recommended
enforcement action, and provides advice on other matters that are
unique or likely to be highly visible. OCC’s procedural and policy
guidance at the time of the Wells enforcement action required Part
21 violations and enforcement actions against large banks based
principally on BSA issues to be presented to WSRC for input on
possible policy or other concerns.

OIG Comment 9 We recommended that minutes be kept of WSRC
meetings to include a record of the deliberations, recommendation,
and final committee decision. The Comptroller expressed concern
that detailed minutes of open and candid discussions would have a
chilling effect on committee members and be counterproductive.
The Comptroller believes a more appropriate type of documentation
would be to detail the basis for a final determination as part of a
memorandum that describes the “case” to the WSRC and/or any
supplementary explanation for the decision by the responsible
Senior Deputy Comptroller. We do not mean to suggest that all
comments committee members make be included in the minutes as
we agree that might impede frank and open discussions that are
essential to the deliberative process. However, we believe that it is
critical to document all individuals in attendance and the issues
presented to the committee in the minutes to support the rationale
for the recommendation and OCC’s final decision. Accordingly, the
Comptroller’s suggestion to document the basis for a decision and
supplementary explanation in a separate memorandum meets the
intent of our recommendation.

OIG Comment 10 In accordance with the MOU, OCC is required to
promptly notify FinCEN of significant BSA violations, or systemic or
pervasive BSA compliance program deficiencies. OCC did notify


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             72
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




FinCEN in December 2004 that an enforcement action against
Wells was being considered but failed to notify FinCEN again
regarding the Part 30 safety and soundness enforcement action
until after the enforcement action was issued to the bank.
Regardless of OCC’s interpretation of the MOU, we believe given
that the matter involved one of the largest banks in the country,
OCC should have kept FinCEN informed as its deliberation
progressed. OCC has since agreed to provide FinCEN with all
formal and informal actions based on BSA violations regardless of
whether a program violation was cited. OCC has established an
internal procedure to implement the September 2004 MOU and
prevent future miscommunication from occurring again. As stated
in its response, OCC will report to FinCEN all BSA/AML matters
that are brought before the WSRC.

OIG Comment 11 The results of the independent examiner’s review
are included in the report. We reviewed the Wells examiners’
reports and believe the examiners’ findings were clearly stated.
However, we have added additional language to the report (in a
footnote) to state OCC’s concern about litigation with the
independent examiner’s conclusions about supervisory
communications.

OIG Comment 12
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             73
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


OIG Comment 13 The report has been revised to state that failure
to comply with a Part 30 safety and soundness plan is a basis for
an enforceable order.

OIG Comment 14 The report discusses how OCC communicates
examination results to the banks and to whom the results are
communicated. As we state in the report, reports of examination
are addressed to the bank’s board of directors, quarterly
management letters are addressed to bank senior management, and
supervisory letters are addressed to both senior bank management
and line managers. When addressed to bank senior management,
this could include the CEO and chairman of the board of directors.

OIG Comment 15
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




OIG Comment 16 We did not state in our draft report that OCC
immediately changed its position. We include in appendix 4 of the
report a timeline of significant events involving Wells’s examination
and enforcement action to provide the sequence of events.

OIG Comment 17 In its comments, OCC raises two issues related
to issuance of a Part 30 enforcement action. One is that we did
not completely depict the Part 30 process, and the second is that
OCC has used this process frequently to address compliance
issues, including BSA issues. Regarding the first issue, we believe
the report includes enough information to understand the Part 30
enforcement process, and that the Part 30 required Wells to
develop and implement a compliance plan with corrective actions
needed to improve its BSA program. Regarding the second issue,


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             74
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




whether or not OCC has used the Part 30 process for other
compliance issues is not relevant to the Wells matter. As OCC
points out, it has used Part 30 action in the past to address
compliance issues. Data we obtained from OCC showed that there
were eight safety and soundness actions addressing BSA issued
since the year 2000, including Wells. Two of the eight banks were
found to have violations of 12 CFR 21.21, and one had not yet
implemented a bank-wide customer due diligence program. We did
not review the circumstances leading to OCC’s use of the Part 30
safety and soundness action in these cases.

OIG Comment 18 The report has been revised to properly depict
KYC and the customer identification program, as suggested by
OCC.

OIG Comment 19 We recognize that an informal Part 30
enforcement action is a serious action. However, we do not believe
informal enforcement action against a bank represents “strong”
enforcement in the same way as a formal action, by virtue of
several differences, including that a formal action is public.

OIG Comment 20 The report has been revised to state that the
former Assistant Director of the Enforcement and Compliance
Division retired from OCC.

OIG Comment 21 We do not say in the report there was any
discussion between the staff attorney and Acting Chief Counsel.
As discussed in our report, the staff attorney who prepared the
original February 2005 enforcement memorandum revised the
memorandum to recommend an informal action. The staff attorney
said the revisions were made when OCC senior management
decided to take informal enforcement action rather than formal
action. The staff attorney also said OCC’s Acting Chief Counsel
suggested further editing of the revised memorandum to balance
the recommendation for informal enforcement action with the
content of the memorandum. The Acting Chief Council provided us
a copy of a draft version of the April 2005 version of the
memorandum with his handwritten notes and edits.
[REDACTED – FOIA EXEMPTIONS 5 and 8, 5 U.S.C. §552(b)(5)
and §552(b)(8)]



BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             75
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 6
OIG Comments to Management Response




REDACTED – FOIA EXEMPTIONS 5 and 8, 5 U.S.C. §552(b)(5)
and §552(b)(8)]




OIG Comment 22 The report has been revised to properly depict
the Deputy Comptroller for Large Bank Supervision.

OIG Comment 23 We disagree that this statement is inaccurate.
Wells’s CEO told us he requested a meeting with OCC senior
officials to discuss concerns about communications with the EIC
regarding BSA and other issues. The timing of the request –
following completion of the 2004 examiner review which identified
significant BSA problems – also suggests that BSA was a major
topic of the discussion. Nonetheless, we have revised the wording
in the report to avoid any misunderstanding and to more clearly
state that the communication issues related to broad concerns as
well as BSA.

OIG Comment 24 We deleted the two sentences from the
footnote.

OIG Comment 25 The number of companies in the Large Bank
Supervision program is constantly changing. We initially reported
25 because that was the number in fiscal year 2004, when OCC
had begun the latest BSA compliance examination. The 25
companies were also reported in OCC’s fiscal year 2004 annual
plan. More currently, OCC’s fiscal year 2005 annual plan identifies
23 companies. The Deputy Comptroller for Large Bank Supervision
stated that there were previously 23 companies, but due to a
recent acquisition, there were now 22. We revised the report to
reflect 22 companies.

OIG Comment 26 We obtained conflicting evidence regarding the
OCC participants for the November 15, 2004, meeting with Wells’s
CEO. In the draft report, we stated that the Acting Comptroller,
Senior Deputy Comptroller for Large Bank Supervision, and Deputy


BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             76
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
                       Appendix 6
                       OIG Comments to Management Response




                       Comptroller for Large Bank Supervision were participants in this
                       meeting. We did so because the Senior Deputy Comptroller for
                       Large Bank Supervision’s recollection and calendar record indicated
                       those were the participants. We knew this conflicted with the
                       recollection of the Acting Comptroller, who we also interviewed
                       about this matter, but the written documentation (the calendar
                       record) seemed to be the better evidence. Based on OCC’s
                       response to our draft report, we have decided to omit in the final
                       report the reference to the Deputy Comptroller for Large Bank
                       Supervision35 being in the meeting. The discrepancies in the
                       recollection of the participants underscore the need that a record
                       be prepared documenting the participants and key discussion
                       points in such meetings with senior bank management.




35
   The Deputy Comptroller for Large Bank Supervision referred to in this section retired, and OCC’s
current Deputy Comptroller was given responsibility for Wells in late December 2004. We did not
interview this former OCC employee.

                       BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action                   77
                       Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 7
Major Contributors to This Report




Sharon Torosian, Audit Manager
Mark Ossinger, Auditor-in-Charge
Jeanne Degagne, Auditor
Terri Nabiam, Auditor
Audrey Philbrick, Auditor
Delores Dabney, Referencer
Esther Tepper, Communications Analyst




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             78
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
Appendix 8
Report Distribution




The Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Controls

Office of the Comptroller of the Currency

Comptroller of the Currency

Financial Crimes Enforcement Network

Director

Office of Management and Budget

OIG Budget Examiner




BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action             79
Against Wells Fargo Bank for Significant BSA Deficiencies (OIG-06-034)
